HHS/OIG, Audit -"Review of Medicaid School-Based Services in KansasApplication
of Bundled Rates,"(A-07-04-01003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid School-Based Services in Kansas  Application
of Bundled Rates," (A-07-04-01003)
January 31, 2006
Complete
Text of Report is available in PDF format (399 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Kansas claimed costs for Medicaid school-based health
services consistent with the design of the bundled payment rates and pursuant to Federal
regulations and the State plan.  Kansas did not reimburse school districts consistent
with the payment rates design or pursuant to Federal regulations or the State plan.  Although
Kansas designed the monthly payment rates to reimburse school districts for a full years
costs over 9 school months, Kansas used these rates to reimburse the school districts for
12 months.  We recommended that Kansas refund $13.9 million to the Federal government
and ensure that future claims for Medicaid reimbursement for school-based services are submitted
pursuant to Federal regulations and the State plan.  Kansas concurred.